STATE OF SOUTH DAKOTA IN CIRCUIT COURT
)
COUNTY OF LAWRENCE FOURTH JUDICIAL
CIRCUIT
__________________________________________
STATE OF SOUTH DAKOTA,
Plaintiff,
vs.
BRILEY PIPER,

)
)
)

)
CHANGE OF PLEA
)
)
Crim. 00-431
)
)

Defendant.
)
__________________________________________
BEFORE: THE HONORABLE WARREN G.
JOHNSON
Circuit Court Judge
Deadwood, South Dakota
January 3, 2001, at 2:30 p.m.

APPEARANCES:
For the State:
MR. JOHN FITZGERALD
State’s Attorney
90 Sherman Street

Deadwood, SD 57732
For the Defendant:
MR. TIMOTHY J. RENSCH
Attorney at Law
PO Box 8311
Rapid City, SD 57709
and MR. PATRICK DUFFY
Attorney at Law
PO Box 8027
Rapid City, SD 57709

1

(WHEREUPON, the following
proceedings were duly had: )
THE COURT:
This is a case of State of South
Dakota, Plaintiff, versus Briley W. Piper, Defendant;
Criminal Action 00-431. I scheduled this hearing
yesterday at the request of Mr. Rensch and also, I
guess, on my own because we had some motions that
needed to be resolved before we begin jury selection
on Monday.
Moments ago, Mr. Rensch indicated that Mr.
Piper intended to enter a plea of guilty to Counts I1,
IIA, III, IV, and V.
Is that correct, Mr. Rensch?
MR. RENSCH:

That’s correct, Your Honor.

THE COURT:

Is that correct, Mr. Piper?

MR. PIPER:

Yes, Your Honor.

THE COURT:
Mr. Fitzgerald, is there anybody
else that is entitled to be present that should have
been notified?
MR. FITZGERALD:
What are we doing now,
taking a change of plea?
THE COURT:

At a minimum.

MR. FITZGERALD:
I suppose the mother of the
victim has a right to know what’s taking place. You
know, I had no idea, until you just said that, that
that’s what this hearing was about. And apparently
you just learned. So I didn’t even bring the file or the
Indictment over here.
THE COURT:
Okay. Did you intend to proceed
with sentencing today, Mr. Rensch?

2

MR. RENSCH:
Your Honor, I don’t think we can
proceed with sentencing today. I think that the
statute requires that the Court conduct a hearing to
set forth the various factors. But if the Court wants
to proceed with sentencing today - - I don’t think you
can proceed with sentencing today, no.
THE COURT:
Well, let me ask you this, Mr.
Fitzgerald: Is the State still seeking the death
penalty?
MR. FITZGERALD:

Yes

THE COURT:
So we would be having a
mitigation hearing?
MR. RENSCH:

Correct.

THE COURT:
Mr. Piper, would you come
forward with your Counsel, please.
MR. PIPER:

(Complying.)

THE COURT:
Mr. Piper, you have previously
appeared before me and entered not guilty pleas to
the original Indictment, and then there were one or
more Amended Indictments. The most recent
Amended Indictment is dated September 7, 2000,
endorsed a true bill, signed by Mary Ann Oberlander
as grand jury foreman. To my knowledge, that is the
most recent Amended Indictment.
Is that your understanding Mr. Fitzgerald?
MR. FITZGERALD:
Your Honor, I believe so,
but I can tell you by just looking at it.
MR. RENSCH:

It’s dated September 7.

MR. FITZGERALD:
Yeah. And this is the one - um, yeah, Nathan Whartman’s name is on there,

3

but he did not testify. And so yeah, that is the most
recent Indictment.
THE COURT:
Okay. Mr. Fitzgerald, would you
read the Indictment, please.
MR. FITZGERALD:

Yes, sure, I will.

(WHEREUPON, the Indictment was
read by Mr. Fitzgerald.)
THE COURT:

Thank you.

Mr. Fitzgerald, is there a plea agreement in
this case?
MR. FITZGERALD:
No. As I said, when I came
in here, this was news to me. You were the first
person, when you announced that within the last five
minutes, that this was taking place.
THE COURT:

So if he pleads guilty to the - -

MR. FITZGERALD:
I didn’t have the
Indictment when you listed off what he was going to
plead guilty to. I do now.
THE COURT:
If he pleads guilty to Count IIA,
which is the kidnapping, Class 1 felony, does that
foreclose the State from going to trial on first degree
premeditated murder, and kidnapping – gross
permanent physical injury?
MR. FITZGERALD:

No.

MR. RENSCH:
It does unless they dismiss the
charges to which we’re willing to plead guilty,
because they’re in the alternative.
THE COURT:
Yes. But I don’t know if it’s the
Defendant’s choice to plead guilty to an alternative
charge. I’ve never had this situation, Mr. Rensch,

4

where a defendant came in without a plea agreement
and chose to plead guilty to an alternative charge.
MR. RENSCH:
Correct. And of course if he
pleads guilty to the alternative charge and if there’s a
factual basis therefor, it would be double jeopardy to
attempt to try him on the charge that is charged in
the alternative.
It is his right to enter the guilty plea. The
State has nothing to say in regards to his right to
enter a guilty plea, as was advised to this Defendant
at the arraignment in this case.
THE COURT:
Let me put it this way: Mr.
Fitzgerald, do you have any objection to the
Defendant entering a guilty plea to Count IA, first
degree felony murder; Count IIA, kidnapping, class 1
felony; and then the balance of the charges?
MR. FITZGERALD:
to consider this?
THE COURT:
minutes?

Could I have a few minutes

I think so. Would you like ten

MR. FITZGERALD:
I’d like more like a half
hour, but I think that would be enough time.
THE COURT:
What I’m getting at is that if he
pleads guilty to these charges, we apparently are
going to have a penalty trial.
MR. RENSCH:

A penalty hearing.

MR. DUFFY:
Hearing with you - - May I speak
or would you prefer I not?
THE COURT:

I think you better.

5

MR. DUFFY:
Under SDCL 23A-27A-6, “At least
one aggravating circumstance required for death
penalty imposition. In nonjury cases the judge shall,
after conducting the presentence hearing as provided
in SDCL 23A-27A-2, designate, in writing, the
aggravating circumstance or circumstances, if any,
which he found beyond a reasonable doubt. Unless
at least one of the statutory aggravating
circumstances enumerated in 23A-27A-1 is so found,
the death penalty shall not be imposed.” So I think
upon acceptance of the plea, we would come to you
for the sentence.
THE COURT:
It was my understanding that the
State would have to consent to the waiver of a jury
trial in a criminal case. Does anyone understand it
differently?
MR. RENSCH:
The State doesn’t have the right
to the jury trial. The Defendant has the right to the
jury trial, as was advised to him at the time of the
arraignment. Thus, it is his right and his right only
to waive.
THE COURT:

Do you agree?

MR. DUFFY:
I’m looking - - I’m seizing upon,
really, the plain language of the statute: “In nonjury
cases the judge shall . . .,” so it’s our position that
upon the acceptance of the plea, we will come before
you for a sentence of life or death.
THE COURT:

Do you know, Mr. Fitzgerald?

MR. FITZGERALD:
No. Again, that would be
something I’d like the opportunity to look into a little
bit.

6

THE COURT:
Why don’t we take a 30-minute
recess, and if you tell me that you don’t know or you
don’t have enough time, then I’ll continue it until
tomorrow morning. Because quite frankly, it will be
a first, as far as I know, of the cases tried in this
state since the death penalty was reenacted where
there was a guilty plea to a Class A felony and then a
sentencing hearing.
MR. RENSCH:
Although there was a case in
1968 out of Yankton that involved a murder of a
jeweler and his wife where a person pled guilty and
was sentenced by the judge without the benefit of a
jury.
MR. DUFFY:
There’s one other, and I don’t
mean to reduce this to anecdote, but Mike Butler and
Mike Schaffer both represented Mary Galland’s
brother, I can’t think of his last name, on a first
degree murder charge in about, oh, I want to guess
1989 in Sioux Falls, and this is - - this is the
procedure that was followed. I think Judge Hurd - I’m 99.99 percent sure Judge Hurd was the
sentencing judge.
MR. RENSCH:
I should tell the Court, too,
tomorrow morning I have a root canal scheduled, but
I can sure be here in the afternoon.
THE COURT:
Well, we’ll take a 30-minute
break and then we’ll come back and then we’ll either
do it or we’ll reset it.
MR. FITZGERALD:
Just for the record, now, I
do have this Indictment in hand and we started this
proceeding when I didn’t have it. he wants to plead
guilty to Count IA - -

7

MR. RENSCH:

Correct.

MR. FITZGERALD:
MR. RENSCH:

Correct.

MR. FITZGERALD:
III, IV, and V?
MR. RENSCH:

- - Count IIA - - - and then the balance of

Correct.

MR. FITZGERALD:

Okay. Thank you.

(WHEREUPON, a brief recess was taken.)
THE COURT:
When we took the recess, I had a
made a couple of inquiries as far as procedure. Mr.
Fitzgerald asked for a break. We had a break, and
he’s since informed me that he was in agreement
with the pleas to the charges indicated.
Is that correct, Mr. Fitzgerald?
MR. FITZGERALD:

Yes, that is, Your Honor.

THE COURT:
Specifically you would agree to
guilty pleas to Count IA, first degree murder – felony
murder; Count IIA, kidnapping; and then Counts III
through V as set forth in the September 7th
Indictment. Is that correct?
MR. FITZGERALD:

Yes, it is, Your Honor.

THE COURT:
Next, the Defense indicated that
they would be waiving the right to sentencing by the
jury and have the sentencing hearing and sentencing
conducted by the Court under the same rules and
circumstances as would be done if a jury was to do it.
Is that correct, Mr. Rensch.
MR. RENSCH:

That is correct.

THE COURT:

Mr. Piper?

8

MR. PIPER:

Yes sir.

THE COURT:
to that?

Mr. Fitzgerald, have you agreed

MR. FITZGERALD:

Yes, I have, Your Honor.

THE COURT:
Mr. Piper, we’ve had numerous
hearings in your case. The Amended Indictment was
filed on September 7th. I think you were previously
arraigned on it and you were certainly arraigned on
the earlier Indictments.
With respect to Count I1, the State would have
to prove that on or about 13 March 2000 in Lawrence
County that you did, while engaged in the
perpetration of a kidnapping, kill Chester Allan
Poage, a human being.
MR. PIPER:

I’m sorry?

THE COURT:
Do you understand what the
State has to prove under this charge?
MR. PIPER:

Yes.

THE COURT:
With respect to Count IIA,
kidnapping, the State would have to prove that on or
about the 13 March 2000 within Lawrence County
that you did seize, confine, inveigle, decoy, abduct, or
carry away Chester Allan Poage and hold or detain
him to facilitate the commission of any felony or
flight thereafter or to inflict bodily injury on or to
terrorize Chester Allan Poage.
Do you understand what the State has to
prove in Count IIA?
MR. PIPER:

Yes.

9

THE COURT:
On Count III, robbery – first
degree, the State would have to prove that on or
about 13 March 2000 in Lawrence County that you
intentionally took personal property, regardless of
value in the possession of Chester Allan Poage from
his person or immediate presence, and against his
will, accomplished - - I believe we’re missing a word,
but I think it’s - - by means of force or fear of some
immediate injury to his person.
Do you understand what the State must prove
in Count III?
MR. PIPER:

Yes.

THE COURT:
In Count IV the State would have
to prove that on or about 13 March 2000 in Lawrence
County that you entered or remained in an occupied
structure, to wit: the residence of Dottie Sue Poage,
Spearfish, with intent to commit the crime of theft.
Further, that the offense was committed in the
nighttime.
Do you understand what the State has to
prove in Count IV?
MR. PIPER:

Yes.

THE COURT:
Count V, grand theft, the State
would have to prove that on or about 13 March 2000
in Lawrence County that you took or exercised
control over property of another, namely property
belonging to the Poage family, the value of which
exceeded $500, with intent to deprive the owner of
the property.
Do you understand what the State has to
prove in Count V?
MR. PIPER:

Yes.

10

MR. RENSCH:
Your Honor, I’d also like the
record to reflect that I’ve explained to my client that
these counts can be proven by aiding and abetting
another who’s perpetrating the same act, and that if
you were aiding and abetting another who was
perpetrating that act, you would chargeable as a
principal.
THE COURT:

That is correct.

Do you understand that, Mr. Piper?
MR. PIPER:

Yes.

THE COURT:
Is there anything about aiding
and abetting that you would like me to explain
further at this time?
MR. PIPER:

No.

THE COURT:
Count IA is a Class A felony.
Should you plead guilty or be found guilty, it is
punishable by either life imprisonment without
parole or punishable by death by lethal injection. Do
you understand that?
MR. PIPER:

Yes.

THE COURT:
Count IIA is a Class 1 felony
punishable by up to life in prison. Counts III, IV,
and - - V are Class 2 felonies punishable by up to 25
years in prison, a $25,000 fine, or both such fine and
imprisonment.
Count V, grand theft, is a Class 4 felony
punishable by up to 10 years in prison, a $10,000
fine, or both such fine and imprisonment.
Do you understand the penalty that could be
imposed, Mr. Piper?

11

MR. PIPER:

Yes

THE COURT:
I have previously explained your
various constitutional and statutory rights, including
your right to be represented by counsel at all stages
of the proceedings. You exercised that right upon
your return from Alaska, and I appointed Mr.
Hubbard to represent you. Mr. Hubbard later moved
to withdraw, and my recollection is that you agreed
with that motion. Is that correct?
MR. PIPER:

Yes.

THE COURT:
I then appointed Mr. Rensch and,
I believe within a matter of days, appointed Mr.
Duffy to be your lawyers, and I believe that was in
July of this year - - of 2000. Do you recall that?
MR. PIPER:

Yes.

THE COURT:
Since then, I appointed, I believe,
a private investigator and a private investigator in
Alaska. I think there were motions relating to
various evaluations which I approved, and I think I
have pretty much approved everything that’s been
requested as far as resources for your attorneys to
assist in your defense.
Have you had all the time you’ve needed to
talk to Mr. Rensch and Mr. Duffy?
MR. PIPER:

Yes.

THE COURT:
Have they answered all of your
questions regarding your case?
MR. PIPER:

Yes.

THE COURT:
Have you had all the time you’ve
needed to discuss the proposal that’s being made here
today?

12

MR. PIPER:

Yes.

THE COURT:
May I ask, Mr. Piper, as best you
recall, when did you first discuss this with your
lawyers?
MR. PIPER:

About a month ago, sir.

THE COURT:
And did that include both the
possibility of these pleas and the possibility of having
the Court deal with the sentencing?
MR. PIPER:

Yes sir.

THE COURT:
Have you had all the time you’ve
needed to think about those possibilities?
MR. PIPER:

Yes.

THE COURT:
The only matters remaining that
I understand are the motion for continuance, the
motion for change of venue. There is a series of
motions in limine that Mr. Rensch filed I think
yesterday that we would take up within the next few
days or next week, and I believe Mr. Fitzgerald has
given notice of some other statements that he
intended to offer. Other than that, I think
everything is pretty much done on your case.
And for the record, I’d be prepared to say at
this point, based upon my review of the jury
questionnaire, that I would deny the motion for
continuance, deny the motion for change of venue,
and would plan to go ahead with your trial next
Monday was scheduled. So to the extent those
pending motions are in any way something that’s on
your mind before you make a final decision here, I

13

just want you to know that that’s my - - that would
be my intention.
And that’s not to say that if we had argument
on the motion that I might do something different as
far as granting a continuance or reconsider the
change of venue or something like that. Those are
still on the table. But if you want a ruling, that’s, at
this point in time on this record, what my ruling
would be.
MR. RENSCH:
He’s also been - - it’s also been
explained to him that in the event he enters this
guilty plea today, that he would be waiving his rights
as they relate to the motions which are pending and
which have been - - well, which have not been ruled
on prior to trial.
THE COURT:
And I think, although I’ve given
you an indication what I would do with those if they
were presented, I would probably treat them as
withdrawn at this point if you enter these pleas.
Okay?
MR. PIPER:

Yes, sir.

THE COURT:
Is there any question about
anything I’ve explained so far?
MR. PIPER:

No.

THE COURT:
Mr. Piper, are you fully satisfied
with the services of your attorneys?
MR. PIPER:

Yes.

THE COURT:
Have they done everything that
you wanted them to do up to this point?
MR. PIPER:

Yes.

14

THE COURT:
Is there anything additional that
you want either or both of your lawyers to do before
you either change your pleas today or before you go
to trial next week?
MR. PIPER:

I don’t believe so.

THE COURT:
services?

Are you fully satisfied with their

MR. PIPER:

Yes.

THE COURT:
Before I move on, is there
anything else you want to comment on about your
legal representation?
MR. PIPER:

No.

THE COURT:
And the reason I maybe overdo it,
Mr. Piper, is that if there’s anything about the
representation that you’ve had that doesn’t suit you I
would rather hear about it now than hear about it
later. Okay?
MR. PIPER:

Yes, sir.

THE COURT:
You have the right to a jury trial
here in Lawrence County by a jury of 12 fair and
impartial jurors. You’d have the right to be present
and represented by your attorneys, the right to
confront and cross-examine the State’s witnesses, the
right to call witnesses and have subpoenas issued for
their appearance. You could testify if you wanted to,
but under the Fifth Amendment, you could not be
forced to be a witness against yourself. Do you
understand these rights?
MR. PIPER:

Yes.

15

THE COURT:
Is there anything about those
rights that you would like me to explain in more
detail?
MR. PIPER:

No.

THE COURT:
You have the right to plead not
guilty and persist in that plea even if you know you
are guilty. If you plead not guilty, you’re entitled to
all these rights.
You also have a right to plead guilty. But if
you plead guilty, you give up the right to a trial, the
right to confront witnesses, and you give up the
privilege against self-incrimination. If you plead
guilty, all that’s left for the Court to do is to
pronounce your sentence. Do you understand that?
MR. PIPER:

Yes.

THE COURT:
With respect to Count IA, which
is a Class A felony, you not only have a jury trial
right as to the charge itself as to the issue of guilt or
innocence, but you have a right to a jury to determine
whether or not the State has proved one of more
aggravating circumstances and then for that jury to
decide whether the penalty should be life or death.
The verdict of the jury would have to be unanimous.
And even if the jury found that one or more
aggravating circumstances existed, I think it is still
within their province to sentence you to life
imprisonment.
Is that your understanding Mr. Rensch?
MR. RENSCH:

Correct.

THE COURT:

Mr. Fitzgerald?

MR. FITZGERALD:

Yes.

16

THE COURT:
Piper?

Do you understand that, Mr.

MR. PIPER:

I didn’t understand that last part.

THE COURT:
Okay. As I understand it, based
upon the statutes and the cases so far decided by the
Supreme Court of this state concerning the death
penalty, that the state of the law is that if you were
convicted of either Count I, premeditated murder, or
Count IA, felony murder, which is the charge that
you intend to plead guilty to today, then we would
have a sentencing hearing.
You are proposing that I hold the sentencing
hearing rather than the jury hold the sentencing
hearing. What you need to understand is that if you
have a jury instead of a judge, all 12 jurors must
agree on the penalty; and even if the jury found that
the State had proved one or more aggravating
circumstances - MR. RENSCH:
Those are circumstances with
which the jury would be justified in giving you the
death penalty if they saw necessary. Aggravating
circumstance is simply something - - The jury must
find that it exists in order to impose the sentence of
death. If they don’t find that that exists, they can’t.
and if they do find that it exists, they don’t have to,
but they can.
THE COURT:
Piper?

Do you understand that, Mr.

MR. PIPER:

Yes.

THE COURT:
Is there anything you want me to
explain in more detail about that?
MR. PIPER:

No.

17

THE COURT:
If I do the sentencing instead of
the jury, I still have the same situation. I must find
one or more aggravating circumstances to be proved
by the evidence, and even if I found those to be
proved by the evidence, I could sentence you to life
imprisonment rather than to death by lethal
injection. Do you understand that?
MR. PIPER:

Yes.

THE COURT:
What is significant about what
you’re doing here today is that if you waive your right
to have the jury do the sentencing, you are trading 12
lay people for one judge to make that call. Do you
understand that?
MR. PIPER:

Yes.

THE COURT:
And if you make that decision, I
will hear the evidence, I will follow the law, and I will
make the decision. Is that what you want to do?
MR. PIPER:

Yes.

THE COURT:
Have you had all the time you’ve
needed to think about that?
MR. PIPER:

Yes.

THE COURT:
The other types of pleas are that
of nolo contendere, or no contest; guilty but mentally
ill; and not guilty by reason of insanity.
In your opinion, Mr. Rensch, would these pleas
have any application to this case?
MR. RENSCH:

No.

18

THE COURT:
evaluation?

I believe there has been an

MR. RENSCH:
He has been evaluated by a
psychiatrist; a report has not been prepared of that
evaluation. But he has spoken to one, and I have
been advised that there is no issue of insanity as it
relates to this case. Or diminished capacity.
THE COURT:
Mr. Piper, do you have any
questions regarding the elements of the offenses
charged, that is, what the State has to prove?
MR. PIPER:

No.

THE COURT:
Do you have any questions
regarding the questions regarding the elements of
the offenses charged, that is, what the State has to
prove?
MR. PIPER:

No.

THE COURT:
Do you have any questions
regarding the penalties that could be imposed in this
case?
MR. PIPER:

No.

THE COURT:
Do you have any questions about
your constitutional and statutory rights that I have
explained to you?
MR. PIPER:

No.

THE COURT:
Do you have any questions
regarding the types of pleas available?
MR. PIPER:

No.

THE COURT:
As I understand your case, there
is no plea agreement here. The only consequence of
your pleading guilty under the terms that are being

19

proposed is that Count I, first degree murder
premeditated design, would either be dismissed by
the State or by the Court. And Count II, kidnapping
– gross permanent physical injury, would be
dismissed by the State or by the Court in exchange
for your plea to Count IIA.
MR. RENSCH:
As well as the Count 1B, Your
Honor, I believe, because he’s pleading to the felony
murder.
THE COURT:
Okay. Count IB would also be
dismissed, which is an alternative first degree
murder – felony murder charge.
MR. RENSCH:

Correct.

THE COURT:
The other consequence would be
that you would be waiving your right to have the jury
do the sentencing. And we’ve discussed that, Mr.
Piper. Is there anything more that you want to tell
me about that or want me to explain to you about
that?
MR. PIPER:

No.

THE COURT:
Okay. Mr. Piper, have there been
any threats or promises made to get you to plead
guilty?
MR. PIPER:

No.

THE COURT:
Are you under the influence of
any drug or alcohol at the present time?
MR. PIPER:

No.

THE COURT:
medication?

Are you taking any prescription

MR. PIPER:

Yes.

20

THE COURT:

What do you take, Mr. Piper?

MR. PIPER:

Doxepin.

THE COURT:

And who prescribed that for you?

MR. PIPER:

County doctor.

MR. RENSCH:

County doctor, he said.

THE COURT:

Do you know, Mr. Larson?

THE BAILIFF:

I believe it was Huguley.

THE COURT:
today?

Have you taken that prescription

MR. PIPER:

No.

THE COURT:
What effect does that prescription
or that drug have on your ability to understand what
we’re doing here today?
MR. PIPER:

None.

THE COURT:
At any time since you’ve been in
custody in Lawrence County have you at any time
taken prescription drugs that have affected your
ability to communicate with your lawyers or
understand what they have been telling you?
MR. PIPER:

No.

THE COURT:
At any time since you returned
from Alaska have you taken any prescription drugs
that affected your ability to understand what was
going on in court proceedings?
MR. PIPER:

No.

THE COURT:
To the best of your knowledge,
Mr. Piper, are you mentally competent?
MR. PIPER:

Yes.

21

THE COURT:
Is the plea you’re about to enter
voluntary and of your own free will?
MR. PIPER:

Yes.

THE COURT:
Do you understand that if you
plead guilty, I’m going to find you guilty?
MR. PIPER:

Yes.

THE COURT:
And if I’m satisfied that there’s a
factual basis for your pleas, I will accept those pleas.
I will then schedule a sentencing hearing when the
State and yourself can present whatever evidence
that you wish me to consider at the time of
sentencing. After that, I’m going to make a decision
as to Count IA, whether it will be life or death, and
then I will decide as to the sentence that be imposed
on the remaining charges. Do you understand that?
MR. PIPER:

Yes.

THE COURT:
The Court finds that the
Defendant has been regularly held to answer; that
he’s represented by competent counsel; understands
the nature of the crimes charged, the maximum
penalties, and the pleas available; that he is not
under duress, nor is he under the influence of any
drug or alcohol; that he’s mentally competent and
that he understands the consequences of his plea.
Mr. Piper, before I take your pleas, is there
anything you want me to explain in more detail?
MR. PIPER:

No.

THE COURT:
You are making a significant
decision today. I can’t emphasize how significant this
decision is. If you need time to dwell on it, think
about it, or discuss it with your lawyers, this is the

22

time to take it. if you want to go ahead, we will go
ahead.
MR. PIPER:

Go ahead, Judge.

THE COURT:

Do you wish to go ahead?

MR. PIPER:

Yeah.

THE COURT:
Rensch?

Are you in agreement, Mr.

MR. RENSCH:

I am, your Honor.

THE COURT:

Mr. Duffy?

MR. DUFFY:

Yes, sir.

THE COURT:
Mr. Piper, to the charge of first
degree murder – felony murder as set forth in Count
IA, how do you plead?
MR. PIPER:

Guilty.

THE COURT:
To the charge of kidnapping as
set forth in Count IIA, how do you plead?
MR. PIPER:

Guilty.

THE COURT:
To the charge of first degree
robbery as set forth in Count III, how do you plead?
MR. PIPER:

Guilty.

THE COURT:
To the charge of first degree
burglary as set forth in Count IV, how do you plead?
MR. PIPER:

Guilty.

THE COURT:
To the charge of grand theft as
set forth in Count V, how do you plead?
MR. PIPER:

Guilty.

23

THE COURT:
Did you on or about 13 March
2000 in Lawrence County engage in the perpetration
of a kidnapping?
MR. PIPER:

Yes, I did.

THE COURT:
During that time did you
participate in the killing of Chester Allan Poage?
MR. PIPER:

Yes, I did.

THE COURT:
Mr. Poage?

What specifically did you do to

MR. PIPER:

I assaulted him.

MR. RENSCH:

Tell him how.

MR. PIPER:

I kicked him.

THE COURT:
Let me stop you there. At the
residence on Third Street, I believe there was
testimony in your statement - - one of your
statements, that when Mr. Poage was on the floor of
the apartment, that he reached out for your foot and
you kicked him in the head. Is that correct?
MR. PIPER:

Yes, sir.

MR. RENSCH:
the factual basis.

If you’d like me to, I can provide

THE COURT:

All right. If you’d like to do that.

MR. RENSCH:
On the evening of March 13th,
2000, my client, along with Eli Page and Darrell
Hoadley, ended up at Chester Allan Poage’s
residence. While they were at the residence, Eli
looked around the place, went in the mother’s
bedroom, Dottie Poage’s bedroom, looked at some
stuff, went out on the front porch. Briley Piper went

24

out to the front porch. Eli said to Briley, “This kid
has some good stuff. Let’s steal it.”
They concocted a plan whereby they would
make it appear as though they were going to do a
drug deal with Chester Allan Poage. They brought
Darrell Hoadley into this plan as well, and he was a
part of it.
They tricked Chester Allan Poage into getting
into his vehicle and going over to Eli Page’s house.
While at Eli Page’s house, Eli Page pulled out a .22
pistol that he had stolen from Dottie Poage’s room
and put it to Chester Allan Poage’s head, made him
get to the floor, began to assault him. At that point
Chester Allan Poage was saying something and was
reaching, and my client kicked him in the face very
hard, knocking him out.
They then, all three of them, tied Chester
Allan Poage up and sat him in a chair. They talked
to him. Conversations took place, some activity took
place there in the house. The long and short of it is
they decided they were going to kill him. They
loaded him into his own Blazer when he was tied up,
and all three of them helped. They walked him to his
Blazer.
They drove him to Higgins Gulch. The Higgins
Gulch was Darrell Hoadley’s idea. When they
arrived at Higgins Gulch, Eli Page said, “Let’s make
him take his clothes off so he can’t run away.” They
corralled him around the back part of the tailgate of
the vehicle. He took his clothes off. They took his
billfold from him. They took the cards in the billfold.
They looked at the license, everything in his billfold.

25

Whereupon they escorted Chester Allan Poage
down to the edge of the creek. All three of them
started to beat Chester Allan Poage. During that
time, they knew that it was going not be a killing.
Briley Piper engaged in kicking him and beating him
during that period of time. That went on for some
minutes. Chester tried to run across the stream. Eli
brought him back.
Briley goes up to the vehicle. He never stabs
Chester Allan Poage, even though he’d made
statements to that effect. And I’ve gone over that in
great detail with him to see if he, in fact, stabbed
him. In any event, Briley Piper goes up to the
vehicle. He doesn’t stop it, he doesn’t leave, he
doesn’t try to get help.
The two down by the creek continue stabbing
and beating and hurting Chester Allan Poage. Briley
Piper comes back down. At that point Chester Allan
Poage wants to wash the blood off, wants to get in the
vehicle; they don’t let him in the vehicle. Piper goes
back up to the vehicle. And he hears rock on rock,
and Eli and Darrell at that point ended Chester
Allan Poage’s life with rocks.
Now, some of that may not be perfect. My
client can correct me where I’m wrong, but that’s
generally my understanding of the factual basis as it
relates to the felony murder perpetrated during the
course of the kidnapping, satisfies the elements for
the robbery because they took the billfold, thereafter
they went back to Dottie Poage’s residence, stole
everything in the residence, which constitutes a
burglary, and possessed what was in the residence,
which constitutes grand theft.

26

THE COURT:
Mr. Piper, is there anything that
Mr. Rensch has just said which you wish to comment
on, qualify, or contradict?
MR. RENSCH:
And I may not have said it
correctly, so it’s important that you give the right
sequence.
MR. PIPER:

No. That’s how it happened.

THE COURT:
Poage?

Did you ever stab Chester Allan

MR. PIPER:

No, I did not.

THE COURT:
You made statements in the past
that you stabbed the victim in the side of the head
with a knife.
MR. PIPER:

Yes, I did.

THE COURT:

Do you recall that?

MR. PIPER:

Yes.

THE COURT:
I believe the other defendants
have made the statement that you did that. That’s
my recollection, Mr. Rensch.
MR. RENSCH:
I think one of them said he did
once. I don’t recall exactly. Although other people
said that he said that he stabbed Mr. Poage.
THE COURT:
I better ask. Did you tell Deputy
Brian Dean that you stabbed him in the side of the
head?
MR. PIPER:

Yes, I did.

THE COURT:

Why did you tell him that?

MR. PIPER:

I had asked him - -

MR. RENSCH:

Tell him about the deal.

27

MR. PIPER:
I asked him if there was - - what I
would have to do in order for any chance of a deal to
be made. I can’t remember exactly what he’d said to
me, but he felt that I wasn’t being honest in what I
had told him, and that in order for any chance or
hope for the State’s Attorney to consider a deal would
be - - would be to go back and - - He felt that - - He
felt that I had lied to him about stabbing Mr. Poage,
and that he felt very secure in the evidence that he
did have that I did do it, and that for any chance for
the State’s Attorney to make a deal would be for me
to say that - - to admit that I did, that I did stab him.
THE COURT:
Did you ever tell anyone else that
you stabbed Chester Allan Poage in the head or
anywhere else?
MR. PIPER:

No, I didn’t.

THE COURT:
You need to understand, Mr.
Piper, that in the sentencing portion of this case, the
State has alleged aggravating circumstances. And I
think within the scope of those aggravating
circumstances that they have specified, they have the
right to introduce evidence that your participation in
the killing may have been more than what you’ve
admitted to here today, and I think you need to
understand that, that just because you plead guilty,
the State is not foreclosed at the sentencing hearing
from introducing probably about everything that they
had intended to introduce in the case-in-chief if we
went to trial on the charges. Do you understand
that?
MR. PIPER:

Yes, sir.

THE COURT:
I didn’t say it very well, but what
I’m trying to make clear to you is that the fact that

28

you say something didn’t happen or you didn’t do
something that you may or maybe not have
previously admitted to doesn’t foreclose the State
from introducing evidence that you did. Do you
understand that?
MR. PIPER:

Yes, sir.

THE COURT:
And at the close of this factual
record or at the close of the sentencing phase, I may
find as a matter of fact that you participated in the
actual stabbing. Do you understand that?
MR. PIPER:

Yes, sir.

THE COURT:
Okay. as far as what Mr. Rensch
has said concerning the charges that you’ve pled
guilty to, is there any further comment you wish to
make?
MR. RENSCH:
Don’t just say no so we can get
out of here. If there’s something you want to clarify,
clarify it.
MR. PIPER:
The reason why I wanted to come
and change my plea today is I want to take
responsibility for what I did, but I will not now nor
ever admit to something I didn’t do.
THE COURT:
Apparently you were willing to
admit to it back in July.
MR. PIPER:
I said that - - Sir, I’m 20 years
old. I’ve never had to deal with anything but traffic
violations, and now the State wants to kill me for
something, yes, that I was a part of but didn’t
specifically do. And to be 20 years old, to try to save
my own life, I did what I thought I had to do.

29

MR. RENSCH:
Are you talking about when you
were speaking to Investigator Dean?
MR. PIPER:

Yes.

THE COURT:
Okay. Mr. Fitzgerald, at this
time is there anything additional you wish to offer for
factual basis?
MR. FITZGERALD:

No, Your Honor.

THE COURT:
May I use Mr. Piper’s statements
of August - - excuse me, April 28th and June 9th for
purposes of factual basis?
MR. RENSCH:

Yes, Your Honor.

THE COURT:

Do you agree, Mr. Piper?

MR. PIPER:

Yes.

THE COURT:
We will be discussing, I’m sure,
the factual basis in more detail at the sentencing
hearing, but for purposes of your pleas to these
charges, I find that there’s a substantial factual basis
to your pleas and your pleas of guilty will be received.
We spoke in chambers concerning scheduling
of the sentencing hearing, and since we had
originally intended to begin testimony on September
17 - MR. RENSCH:

January.

THE COURT:
I’m sorry. January 17th, that we
agree to begin on the 17th and set aside three days if
needed.
Is that correct, Mr. Rensch?
MR. RENSCH:

Correct, Your Honor.

THE COURT:

Mr. Fitzgerald?

30

MR. FITZGERALD:

Yes, Your Honor.

THE COURT:
We will reconvene at 9 a.m. on
January 17th for the sentencing hearing.
One other thing that was discussed off the
record was how you wanted to present your evidence,
particularly if you had people from your hometown
that you wanted to have in person. I told Mr. Rensch
that I would accept the evidence in whatever form
that you and he wanted to present it, whether it was
in affidavit form or in the form of live testimony. He
will discuss that with you in more detail, but that
option is available.
And I believe you’ve agreed as far as affidavits,
Mr. Fitzgerald?
MR. FITZGERALD:

Yes, I did.

THE COURT:
I just want to assure you on the
record that if you want those people here live and in
person, that’s the way it will be. Do you understand?
MR. PIPER:

Yes.

THE COURT:
Do you have anything further
today, Mr. Fitzgerald?
MR. FITZGERALD:

No, Your Honor.

THE COURT:

Mr. Rensch?

MR. RENSCH:

Nothing, Your Honor.

THE COURT:

Mr. Duffy?

MR. DUFFY:

Nothing further.

THE COURT:

Do you have any questions?

MR. PIPER:

No.

THE COURT:

Court will be in recess.

31

32

STATE OF SOUTH DAKOTA

)
) SS

CERTIFICATE
COUNTY OF LAWRENCE

)

I, Tracy L. Binder, Court Reporter and Notary
Public, South Dakota, duly commissioned to
administer oaths, certify that I placed the witnesses
under oath before the witnesses testified; that the
foregoing testimony of said witnesses was taken by
me in shorthand, and that the same has been
reduced to typewritten form under my supervision;
that the foregoing transcript is a true transcript of
the questions asked, of the testimony given, and of
the proceedings had.
I further certify that I am not related to,
employed by, or in any way associated with any of
the parties to this action, or their counsel, and have
no interest in its event.
Witness my had and seal at Deadwood, South
Dakota, this 4th day of January, 2001.

Tracy Binder____________

/s/
Tracy

L. Binder
Certified Shorthand Reporter

33

